<html>
<title> - ADDRESSING THE HOUSING NEEDS OF NATIVE AMERICAN VETERANS WITH DISABILITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      ADDRESSING THE HOUSING NEEDS 
                      OF NATIVE AMERICAN VETERANS 
                           WITH DISABILITIES 

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2010

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 111-119

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-737 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            MICHAEL N. CASTLE, Delaware
CAROLYN B. MALONEY, New York         PETER T. KING, New York
LUIS V. GUTIERREZ, Illinois          EDWARD R. ROYCE, California
NYDIA M. VELAZQUEZ, New York         FRANK D. LUCAS, Oklahoma
MELVIN L. WATT, North Carolina       RON PAUL, Texas
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
BRAD SHERMAN, California             WALTER B. JONES, Jr., North 
GREGORY W. MEEKS, New York               Carolina
DENNIS MOORE, Kansas                 JUDY BIGGERT, Illinois
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
RUBEN HINOJOSA, Texas                SHELLEY MOORE CAPITO, West 
WM. LACY CLAY, Missouri                  Virginia
CAROLYN McCARTHY, New York           JEB HENSARLING, Texas
JOE BACA, California                 SCOTT GARRETT, New Jersey
STEPHEN F. LYNCH, Massachusetts      J. GRESHAM BARRETT, South Carolina
BRAD MILLER, North Carolina          JIM GERLACH, Pennsylvania
DAVID SCOTT, Georgia                 RANDY NEUGEBAUER, Texas
AL GREEN, Texas                      TOM PRICE, Georgia
EMANUEL CLEAVER, Missouri            PATRICK T. McHENRY, North Carolina
MELISSA L. BEAN, Illinois            JOHN CAMPBELL, California
GWEN MOORE, Wisconsin                ADAM PUTNAM, Florida
PAUL W. HODES, New Hampshire         MICHELE BACHMANN, Minnesota
KEITH ELLISON, Minnesota             KENNY MARCHANT, Texas
RON KLEIN, Florida                   THADDEUS G. McCOTTER, Michigan
CHARLES A. WILSON, Ohio              KEVIN McCARTHY, California
ED PERLMUTTER, Colorado              BILL POSEY, Florida
JOE DONNELLY, Indiana                LYNN JENKINS, Kansas
BILL FOSTER, Illinois                CHRISTOPHER LEE, New York
ANDRE CARSON, Indiana                ERIK PAULSEN, Minnesota
JACKIE SPEIER, California            LEONARD LANCE, New Jersey
TRAVIS CHILDERS, Mississippi
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
STEVE DRIEHAUS, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
DAN MAFFEI, New York

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
EMANUEL CLEAVER, Missouri            THADDEUS G. McCOTTER, Michigan
AL GREEN, Texas                      JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              GARY G. MILLER, California
KEITH ELLISON, Minnesota             RANDY NEUGEBAUER, Texas
JOE DONNELLY, Indiana                WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
PAUL E. KANJORSKI, Pennsylvania      ADAM PUTNAM, Florida
LUIS V. GUTIERREZ, Illinois          KENNY MARCHANT, Texas
STEVE DRIEHAUS, Ohio                 LYNN JENKINS, Kansas
MARY JO KILROY, Ohio                 CHRISTOPHER LEE, New York
JIM HIMES, Connecticut
DAN MAFFEI, New York




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 10, 2010...............................................     1
Appendix:
    April 10, 2010...............................................    31

                               WITNESSES
                        Saturday, April 10, 2010

Baha-Walker, Margaret, Vice Chairwoman, White Mountain Apache 
  Tribe..........................................................    10
Begay, Jeff, Commander, Region 9, National American Indian 
  Veterans.......................................................    19
Begay, Richard K., disabled American veteran.....................    26
DiGirolamo, Robert, National Executive Committeeman, Disabled 
  American Veterans..............................................    23
Karnas, Fred G., Senior Adviser to Secretary Shaun Donovan, U.S. 
  Department of Housing and Urban Development....................     6
Nez, Angela Barney, Assistant to the President, the Navajo Nation     8
Nez, David P., Department Director, Navajo Department of Veterans 
  Affairs........................................................    25
Shelly, Benjamin, Vice President, Navajo Nation..................     1
Teller, Leonard, Chairman, Navajo Housing Authority..............    27
Willie, Mellor C., Executive Director, National American Indian 
  Housing Council................................................    21
Yazzie, Aneva J., Chief Executive Officer, Navajo Housing 
  Authority......................................................    12

                                APPENDIX

Prepared statements:
    Baha-Walker, Margaret........................................    32
    Begay, Richard K.............................................    35
    DiGirolamo, Robert...........................................    37
    Karnas, Fred G...............................................    41
    Nez, Angela Barney...........................................    45
    Nez, David P.................................................    48
    Willie, Mellor C.............................................    49
    Yazzie, Aneva J..............................................    54

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written statement of Raymond P. Bell, Jr.....................    59


                      ADDRESSING THE HOUSING NEEDS
                      OF NATIVE AMERICAN VETERANS
                           WITH DISABILITIES

                              ----------                              


                        Saturday, April 10, 2010

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 11:30 a.m., at 
the Navajo Nation Museum, Highway 264 at Loop Road, Window 
Rock, Arizona, Hon. Maxine Waters [chairwoman of the 
subcommittee] presiding.
    Members present: Representative Waters.
    Also present: Representative Kirkpatrick.
    Chairwoman Waters. Good afternoon. We will have at this 
moment a presentation by the Vice President of the Navajo 
Nation, Mr. Ben Shelly. Would you please come forward?

  STATEMENT OF BENJAMIN SHELLY, VICE PRESIDENT, NAVAJO NATION

    Mr. Shelly. Wow, it is always nice to be the first one to 
talk, because if you are always the last one, everybody else 
has already said what you want to say. So thank you very much, 
Chairwoman Waters, for allowing me to go first.
    I would like to say good morning to all the veterans, a 
ni'shi'kay, my relatives, my mom and dad, my grandpa and 
grandma, and my leaders, all of you, and the visitors, all of 
you, welcome to the Navajo Nation. (Speaks in Navajo)--and my 
fathers are Sagebrush, grandpas are South People, and my 
cousins are Deer Water People.
    I am here before you as the Vice President of the Navajo 
Nation, and I have a statement to make on behalf of the Office 
of the President and the Vice President. Ya'at'eeh. Good 
morning, Chairwoman Waters, Representative Kirkpatrick, and 
members of the House Subcommittee on Housing and Community 
Opportunity. Welcome to the Navajo Nation.
    I am the Vice President of the Navajo Nation, Ben Shelly. 
First of all, thank you for holding this hearing to discuss 
housing issues facing our Native American and Navajo veterans. 
I applaud your interest and desire to learn firsthand about the 
real needs of our veterans, and that you are here to do that. I 
understand you're going to visit some homes. I welcome that.
    Since the early 1900's, many young Navajo men and women 
have proudly served in the United States Armed Forces, 
including the Navajo Code Talkers. It is well known that Navajo 
men and women enlisted far in excess of other ethnic groups in 
this country.
    Some of the needs of our veterans include health care, 
housing, veteran's cemeteries, and other basic benefits. 
Studies show that the Navajo veterans have underutilized their 
VA benefits, largely due to the vastness, the remoteness, and 
the isolation of the Navajo Nation. Many of our veterans today 
don't have homes, don't have running water, and don't have 
electricity. Our veterans deserve better.
    It is also unfortunate that existing income eligibility 
requirements for housing can create real barriers for Native 
American veterans with disabilities. However, due to the hard 
work of Representative Kirkpatrick and the efficiency of 
organizations such as the Navajo Housing Authority and the 
National American Indian Housing Council, legislation has been 
introduced to help meet this challenge.
    Recently, Representative Kirkpatrick introduced H.R. 3553, 
the Indian Veterans Housing Opportunity Act of 2010, to ensure 
that disabled Native American veterans, their families, and 
their survivors are not denied support through the Native 
American Housing Assistance and Self Determination Act because 
they are receiving veterans disability and survivor benefits.
    I applaud Congresswoman Kirkpatrick for sponsoring this 
support bill. I also thank Congressmen Lujan, Heinrich, and 
Teague for co-sponsoring the bill. The Navajo Nation fully 
supports this bill.
    Our Native American and Navajo veterans have served their 
country with pride, with honor, and with dignity, and I applaud 
efforts by this committee to explore issues facing our 
veterans.
    With me today is Ms. Angela Barney Nez, a veteran, and a 
Tribal Leader of the Tohatchi Chapter. Ms. Barney Nez will be 
providing the committee with more in-depth testimony. I would 
also like to say that I met with the Congresswoman earlier: we 
talked about housing; we talked about apartments; and we talked 
about a lot of other things.
    One thing I want to bring out and be on record is that the 
Federal veteran count of Navajo veterans is lower than the 
Navajo veteran count. I ask the committee and Chairwoman Waters 
to help us so that the Federal count is the same as what we 
have, the Navajo veteran count, because it is very important 
that those counts are consistent. It brings clinics and other 
help based on that.
    We have a Census 2010 going on. Utilize some of those 
counts, and make it so--I know it is going to be more. A lot of 
our young kids are overseas right now and will be coming home, 
and I would like to have those houses available for them using 
the benefits, funding, a veterans benefits to house those 
veterans who come home.
    I do not want to see a veteran come home from overseas and 
be homeless. I want them to have a place to come to. I know the 
Navajo Housing Authority will be ready to do that. We ask for 
more funding. We need help from HUD, from NAHASDA, to provide 
that funding. If we are serious from the heart, if we really 
want and are talking from the heart to the veterans, that we 
love them, we want to help, let's do it by doing it. Let's not 
talk anymore; let's get our heads together and be together and 
do it and help them.
    I would like to say that on behalf of our veterans, and I 
just would like to say, again, thank you for traveling to the 
Navajo Nation. It is a wonderful day today. Wonderful and nice 
and sunny out there. Thank you very much.
    Chairwoman Waters. Thank you very much. Thank you very 
much, Vice President Shelly, for that opening statement. Ladies 
and gentlemen, at this time, the Subcommittee on Housing and 
Community Opportunity will come to order. Good morning, instead 
of good afternoon. Ladies and gentlemen, welcome to the 
Subcommittee on Housing and Community Opportunity's Window Rock 
field hearing entitled, ``Addressing the Housing Needs of 
Native American Veterans With Disabilities.''
    I would like to begin by thanking the Navajo Nation Museum 
for graciously allowing us to use this beautiful space for 
today's hearing, and the very helpful staff and members of the 
Navajo Nation for their assistance. A big round of a applause, 
please.
    Ladies and gentlemen, I am here today because of the 
leadership of Congresswoman Ann Kirkpatrick. Congresswoman 
Kirkpatrick serves on the Veterans Affairs Committee, the 
Homeland Security Committee, the Small Business Committee, and 
she is a member of the Congressional Native American Caucus. 
She has been a champion for Native Americans and American 
Indians in both her district, as well as across the Nation.
    As many of you know, she became the first new member of the 
111th Congress to have her legislation signed into law. On May 
8th, President Obama signed into law the Senate version of Mrs. 
Kirkpatrick's bill, H.R. 1762, the repeal of the ``Bennett 
Freeze'' which repealed a law that would have halted economic 
growth on Western Navajo Nation and on Hopi Lands.
    Mrs. Kirkpatrick has also been successful in her efforts to 
advocate for the rights of disabled veterans and their 
families. In March of 2009, Mrs. Kirkpatrick's bill, H.R. 1513, 
passed out of the House of Representatives and is now in the 
Senate awaiting final passage.
    This bill would adjust the cost of living standard to help 
service-disabled veterans and survivors keep pace with the cost 
of basic needs, such as food and housing. Today's hearing will 
focus on Mrs. Kirkpatrick's bill, H.R. 3553, the Indian 
Veterans Housing Opportunity Act of 2009, and we will also 
address the important and unique housing needs of Native 
American veterans with disabilities.
    According to the most recent U.S. Census data from 2003, 
there are 561 federally-recognized Tribes, which include Native 
American Indian Tribes and Alaska Native villages. More than 
three-quarters of a million Native Americans live on 
reservations and/or other tribal areas, and another 1.68 
million live outside tribal areas.
    Furthermore, a total of 34 percent of the Native population 
resides in rural areas where many reservations are located. It 
has become clear that many of the tribal areas lack adequate 
housing, compared to the general U.S. population. According to 
the 2000 Census Bureau report, 14.7 percent of homes in tribal 
areas are overcrowded, compared to 5.7 percent of homes of the 
general U.S. population.
    On Native American lands, 11.7 percent of residents lack 
plumbing facilities, compared to 1.2 percent of the general 
U.S. population. Furthermore, according to a 2005 Government 
Accountability Office report, 11 percent of residents lack 
kitchen facilities, compared to merely 1 percent of the general 
U.S. population.
    The situation is even more dire for those in need of 
housing on tribal lands. In total, approximately 90,000 Native 
American families are homeless or underhoused, and an estimated 
200,000 housing units are needed immediately in Indian Country, 
according to a 2003 report from the U.S. Commission on Civil 
Rights.
    However, Native Americans have the highest rate of serving 
in the military, making them more likely to serve than any 
ethnic group. According to the U.S. Department of Veterans 
Affairs, 22 percent of Native Americans are currently serving 
in the military. It is appalling that, although Native 
Americans are the most likely to serve of any ethnic group, 
little has been provided to ensure adequate and sufficient 
housing for the brave veterans who have served our Nation.
    Furthermore, with the total number of disabled veterans in 
the United States currently at 24 million, 3.1 million veterans 
receiving service-connected disability benefits, it is also 
evident that many Native American veterans are also struggling 
with disabilities.
    The Native American Housing and Self Determination Act of 
1996, or NAHASDA, was established through the Department of 
Housing and Urban Development, that is HUD, to provide housing 
services to Native Americans based on a needs-based formula.
    Unfortunately, under the current calculation, Native 
American veterans and their families and survivors are often 
disqualified from qualifying for NAHASDA housing benefits. 
Under current NAHASDA regulations, disability payments and 
survivor benefits are calculated into the family's income, 
which will result in the family's income exceeding the 80-
percent area median income, the retro that is required to 
qualify for housing benefits. As a result, these families are 
unable to qualify for NAHASDA housing services.
    Mrs. Kirkpatrick's bill, H.R. 3553, will correct this 
provision in NAHASDA by amending the definition of income in 
NAHASDA to exclude payments for disability and service-related 
injuries. By doing so, disabled Native American veterans, their 
families, and their survivors will be able to qualify for 
NAHASDA housing benefits. This bill will do much to help ensure 
that all citizens are adequately served in government housing 
programs, especially those who have served our Nation bravely.
    I look forward to hearing from our witnesses today about 
both the housing needs of Native American veterans with 
disabilities, and the ways in which we can better connect this 
population with NAHASDA benefits.
    Again, I want to thank you for welcoming me to the Navajo 
Nation today.
    I would now like to recognize the leader and the real 
advocate of the Navajo Nation, Congresswoman Kirkpatrick, to 
make an opening statement for as much time as she would desire.
    Thank you very much, Congresswoman Kirkpatrick.
    Mrs. Kirkpatrick. I'm honored to be here today on the 
Navajo Nation with so many leaders of the Native American 
community, the veterans, and the Housing Authority. I want to 
wish a warm welcome to you, Madam Chairwoman, for being here 
today, and I thank you for bringing the Subcommittee on Housing 
and Community Opportunity of the Financial Services Committee 
out here to discuss Native American veterans housing 
opportunities.
    This is an issue that is personally very important to me, 
and before we started the hearing, I was visiting with many of 
you who are here today, telling me your stories and how you 
can't qualify for housing. So the purpose of this hearing is 
really to address those needs.
    Growing up in Indian Country, I learned at an early age of 
the long history of Native Americans sacrificing in service to 
our country. This history includes Indian scouts assisting U.S. 
units throughout the American West. It includes the best known 
example, the brave and honorable service of the Navajo Code 
Talkers who saved the lives of countless Americans in World War 
II and the Korean War by using Dine' to transmit sensitive 
military communications, and it continues to this very day as 
Native Americans proudly and honorably serve in Iraq, 
Afghanistan, and around the world.
    Today, the Department of Veterans Affairs estimates that 22 
percent of Native Americans are veterans or are currently 
serving. That is the most out of any ethnic group. I am a 
member of the House Committee on Veterans Affairs, where we 
have taken a number of steps to help keep our promise to all 
veterans.
    I helped pass the largest budget ever for veterans' health 
care and benefits. I also helped to finally pass a law that 
veterans service organizations have been pushing for, for 
years, a law to require Congress to approve the VA health care 
budget one year in advance so that veterans will not have to 
pay the price when Washington cannot get its act together.
    However, we can and must do more to ensure that our Native 
American veterans are not allowed to slip through the cracks, 
even as we make broad advances to better serve these veterans 
and Native Americans in general.
    The Native American Housing Assistance and Self 
Determination Act of 1996 was a major step forward helping 
Tribes provide adequate housing for thousands of families 
across the country. Assistance is limited to families making 
less than 80 percent of the median income of their area, which 
exposes one important flaw; the Act treats compensation for 
veterans with service-related disabilities or for the families 
of those killed in service, as income. As a result, these 
benefits can push veterans and survivor families above the 
limit, making them ineligible and costing them assistance that 
they had badly needed.
    This flaw has caused disabled veterans, their families, and 
their survivors to be denied help because that extra income has 
pushed them over the allowable limits. My bill would fix this 
flaw by changing the definition of ``income'' to explicitly 
exclude veterans disability and survivor compensation, ending 
this unfair practice and lifting the burden on Native American 
veterans.
    Native American veterans have sacrificed so much for this 
country, and they should not be punished for receiving the 
compensation they earned. It is long past time to right this 
wrong and ensure that this Nation keeps its sacred promise to 
its Native veterans.
    Thank you again for coming, and I look forward to your 
testimony. I yield back.
    Chairwoman Waters. Thank you very much.
    I am now pleased to welcome our distinguished first panel. 
Our first witness will be Mr. Fred Karnas, Senior Advisor to 
the Secretary, U.S. Department of Housing and Urban 
Development.
    Our second witness will be Ms. Angela Barney Nez, assistant 
to the president, Navajo Nation. Our third witness will be Ms. 
Margaret Baha-Walker, vice chairwoman, White Mountain Apache 
Tribe. And our fourth witness will be Ms. Aneva Yazzie, chief 
executive officer, Navajo Housing Authority.
    I thank you all for appearing before our subcommittee here 
today, and without objection, your written statements will be 
made a part of the record. You will now be recognized for a 5-
minute summary of your testimony, and we will start with Mr. 
Karnas. Thank you.

STATEMENT OF FRED G. KARNAS, SENIOR ADVISER TO SECRETARY SHAUN 
   DONOVAN, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Karnas. Good morning, Madam Chairwoman and 
Representative Kirkpatrick. I am honored to be here at the 
Navajo Nation. I am pleased to be back in Arizona, which is my 
home. Before joining the Obama Administration, I had the 
privilege of serving with Former Governor Janet Napolitano as a 
cabinet member as the housing director, and I see several 
familiar faces of colleagues and friends here today.
    I have two goals this morning in the short time that we 
have. The first is to represent Secretary Donovan's strong 
commitment to improving housing conditions for Native 
Americans, both in the Navajo Nation and across the country, 
especially those who have given so much for this Nation.
    Second, on behalf of HUD, I want to learn from the Native 
American veterans and leaders who will be providing testimony 
so that we jointly--Congress, HUD, and tribal leadership--can 
craft solutions to the housing challenges on tribal lands, 
particularly those confronting disabled Native American 
veterans.
    Let me add that joining me from HUD is Carolyn O'Neil, the 
administrator of our Southwest Office of Native American 
Programs. I would like to take a few minutes to briefly 
summarize the department's written testimony. I don't need to 
go into great detail in terms of the need. Congresswoman Waters 
certainly provided the data that we know is true.
    The 2000 Census data suggested over a half a million Native 
American and Native Alaskan households have severe housing 
needs, which are defined as living conditions that are 
overcrowded, substandard, or cost-burdensome. A 2002 Harvard 
study suggested approximately 40 percent of on-reservation 
housing is inadequate. That is compared to 6 percent 
nationwide. It is generally accepted that there is a need for 
200,000 new units of housing in Indian Country.
    Despite the magnitude of this challenge, I have to say that 
my experience here in Arizona is that many Tribes have made 
significant efforts to take on this housing crisis and have 
made major inroads in building capacity and offering creative 
solutions for developing new housing stock. Certainly, Director 
Yazzie is someone who has been very creative and active in that 
area.
    At HUD, we feel we have been a partner in supporting these 
efforts, but as I said at the outset, we can do better, and we 
look forward to learning more today about the ways we can build 
a stronger collaboration, especially as it relates to housing 
opportunities for veterans with disabilities.
    The partnership begins by ensuring that existing Native 
American programs at HUD are working well. Since its inception, 
the Native American Housing Assistance and Self Determination 
Act, NAHASDA, has been embraced by tribal leaders and Indian 
housing entities because it provides flexibility to design and 
run housing programs according to local needs.
    The congressional findings and the Act state that Federal 
assistance should be provided in a manner that recognizes the 
right of Indian self-determination and tribal self-governance.
    The Indian Housing Block Grant program is the biggest of 
several NAHASDA programs. Each year, with average annual 
funding of about $632 million, the IHBG program has assisted 
approximately 7,500 families by providing the funds for a new 
home or substantially rehabilitating an existing home. 
Approximately 5,000 more families each year are provided 
emergency housing assistance, and about 6,000 are provided some 
type of rental voucher through IHBG.
    IHBG funds are also used to maintain and manage existing 
housing stock, develop housing infrastructure, and protect 
residents of low-income housing with crime prevention and 
safety activities slips of safety activities.
    More specifically related to the needs of Native American 
disabled veterans, HUD has been working closely with the 
Department of Veterans Affairs and their stated goal of ending 
veterans homelessness in 5 years. An element of that goal is to 
use tools like the HUD-VASH program to better target veterans 
with the greatest need, especially those who are disabled and 
have been living on the street for some time, or are doubled-
up, or are at risk of homelessness.
    In closing, let me talk briefly about H.R. 3553. First, let 
me say that HUD is currently reviewing the bill and we look 
forward to working with Congress to develop legislation that 
promotes housing opportunities for Native Americans.
    As was stated, this bill would exclude VA disability 
compensation and dependency and indemnity compensation from the 
calculation of income for determining eligibility for the 
Indian Housing Block Grant program. It would amend the 
definition of ``income'' for purposes of program eligibility.
    As in most government-assisted housing programs, income is 
used to determine eligibility for participation in the IHBG 
program. Most families who receive IHBG assistance must be low-
income Indian families on a reservation or in an Indian area. 
When determining income for admission, the Tribe or Tribally 
Designated Housing Entity must include income from all sources 
for each family member, with certain limited exceptions. 
Currently, the payments referred to in H.R. 3553 are not 
excluded.
    It should be noted, however, that a mechanism exists in the 
IHBG regulations whereby a Tribe or its housing entity may use 
up to 10 percent of its IHBG funds to serve Native American 
applicants whose incomes are between 80 and 100 percent of 
median income, and with HUD approval, the Tribe may serve 
families who earn more than 100 percent of median income. 
However, under HUD regulations, these non-low-income residents 
must be charged more than low-income families.
    NAHASDA, however, was amended in 2008 to provide that a 
Tribe may serve over-income Indian families if such action is 
determined to be essential to the well-being of the community. 
These families can be served by the program if their need for 
housing cannot reasonably be met without such assistance. 
Tribal leaders are currently meeting to negotiate regulations 
to implement this revised provision.
    This concludes my prepared statement. Thank you for the 
opportunity to be here today. Thank you for the opportunity to 
hear from the tribal leaders so we can craft solutions together 
in the future. I would be happy to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Karnas can be found on page 
41 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Next, we will hear from Ms. Angela Barney Nez.

STATEMENT OF ANGELA BARNEY NEZ, ASSISTANT TO THE PRESIDENT, THE 
                         NAVAJO NATION

    Ms. Barney Nez. Good afternoon, Congresswoman Waters, and 
Representative Kirkpatrick. Thank you very much for being here. 
I would like to acknowledge the tribal leadership here also 
from Apache Nation, White Mountain Apache, and other Tribes 
that might be here. I have brief introductory that I would like 
to do.
    We have members of the Navajo Nation Council who are in the 
building--in the room here. Leonard Teller is here, and also 
Mr. Ervin Keeswood, and other members of the Navajo Nation 
Council to be acknowledged here in this hearing. Thank you for 
being here, as well.
    We would like to say thank you to the veterans who have 
traveled long distances from the vast Navajo remote areas, who 
are here from Chinle, from the different areas in Western 
Agency and Shiprock who are here today.
    I would also like to invite any written testimony that 
could be joined from the tribal leadership at the local level 
from the Chapters, and some of them are here, Travis John and 
some of the district leadership from the local communities.
    I would like to say thank you to all the veterans who are 
Vietnam veterans, the Korean War veterans, our World War II 
veterans, because I can see you from here, and I can see that 
we really want to address these needs properly and 
appropriately.
    Thank you for holding this important field hearing in 
Window Rock to highlight the needs of the Navajo Nation 
veterans and to discuss H.R. 3553, the Indian Veterans Housing 
Opportunity Act of 2010.
    My name is Angela Barney Nez, and I work with the Navajo 
Nation President, Dr. Joe Shirley, Jr., and I am here on his 
behalf. I am also a woman veteran who proudly served in the 
U.S. Army. As I am sure you saw during your travels to Window 
Rock through our beautiful homeland, the Navajo Nation is vast. 
Across our nearly 17 million acres live more than 205,000 
Navajos, many of whom live in remote and isolated areas without 
water or electricity.
    Amongst our population live more than 12,433 former service 
members. Our Navajo veterans represent the largest population 
of Native Americans to serve in the U.S. Armed Forces. 
Historically, a greater proportion of Native Americans serve in 
the Armed Forces of the United States than any other ethnic 
group across the United States.
    As a people, Navajos have a high respect for our veterans. 
Traditionally, Navajo culture and society identifies veterans 
with the Navajo concept of ``protector'' and ``defenders'' of 
the Navajo homeland and the Navajo way of life.
    Our Navajo warriors have voluntarily served in all of our 
Nation's major 20th and 21st Century conflicts. This includes 
serving in World War I even before Navajos were recognized as 
citizens and had the opportunity to vote.
    The most visible group of Navajo veterans are the Navajo 
Code Talkers, who were able to create over 800 codes that were 
never deciphered by the Japanese during the Asian-Pacific 
campaigns in World War II. We are also exceedingly proud of the 
significant number of our female veterans serving in uniform.
    The Navajo people have long sacrificed in service to our 
country. Unfortunately, these sacrifices have given rise to 
many unique challenges when our veterans return home. The 
Navajo Nation is rural and isolated with an unemployment rate 
exceeding 50 percent and a per capita income of $6,800.
    We lack basic water, power, and transportation resources 
for economic development, and our health care system is 
insufficient to meet the needs of our people. For our veterans, 
too many of whom are disabled, this means they return from 
service without employment prospects and housing, and are 
unable to reach health care facilities.
    The Navajo Nation supports H.R. 3553, the Indian Veterans 
Housing Opportunity Act of 2010, sponsored by Representative 
Ann Kirkpatrick, because it honors the sacrifice of our Navajo 
Nation veterans. By excluding the Navajo Nation veterans from 
the Native American Housing Assistance and Self Determination 
Act of 1996 (NAHASDA) income reporting requirements, our 
veterans will no longer be punished for receiving compensation 
for the injuries and disabilities they suffered throughout 
their service.
    Many of our veterans live in isolated areas, miles from the 
nearest paved roads and available utilities such as water and 
power. In many cases, these veterans live in substandard and 
unsafe housing conditions without running water, electricity, 
or sewer or septic systems.
    When our Navajo veterans who receive compensation under 
Title 38 United States Code Chapter 11 for a service-related 
injury, then apply for shelter from NAHASDA-funded homes, they 
are denied eligibility because of this compensation. More than 
one-third of veterans who apply for NAHASDA housing funds are 
rejected because of these income requirements.
    Our veterans have already served, face the trauma of their 
service-related injury, but then just take their own way in our 
isolated lands, plus limited infrastructure availability. The 
Navajo Nation supports H.R. 3553 and its official exemption 
from income eligibility determination for service-related 
injuries. Passing this legislation will immediately change the 
housing situation on the Navajo Nation for our veterans.
    We thank Congresswoman Kirkpatrick and Congresswoman Waters 
for working to ease the burdens of Navajo veterans, and 
sincerely hope this legislation will pass the Congress and 
signed into law by the President. While this bill makes its way 
through the legislative process, we would also request 
assistance from the members of the committee in seeking an 
administrative solution to our housing problems.
    Having Navajo veterans classified as essential to the 
community will allow HUD to set reasonable caps on income and 
assist these veterans to acquire safe, comfortable, affordable 
housing.
    Congresswoman Waters, Honorable members of the 
subcommittee, and Congresswoman Kirkpatrick, on behalf of the 
Navajo Nation President, Dr. Joe Shirley, Jr., I express my 
complete appreciation for the opportunity to provide testimony 
to the Subcommittee on Housing and Community Opportunity.
    Your commitment exhibits America's commitment to a grateful 
Nation for our veterans. The Navajo Nation looks forward to 
working with the subcommittee on the government-to-government 
relationship as we move forward with this important legislation 
concerning the future of H.R. 3553, the Indian Veterans Housing 
and Assistance Act of 2010, and I thank you for this 
opportunity.
    As a final note, I would like to dedicate this testimony to 
my grandfather, the former Vice President of the Navajo Nation, 
a World War II veteran, Edward T. Begay. He's right here 
sitting in the second row. Thank you very much.
    [The prepared statement of Ms. Barney Nez can be found on 
page 45 of the appendix.]
    Chairwoman Waters. Our next witness will be Ms. Margaret 
Baha-Walker.

   STATEMENT OF MARGARET BAHA-WALKER, VICE CHAIRWOMAN, WHITE 
                     MOUNTAIN APACHE TRIBE

    Ms. Baha-Walker. (Speaks in Apache).
    Good morning, Honorable Congresswoman Ann Kirkpatrick, 
Honorable Chairwoman Maxine Waters, and other esteemed members 
of the panel. I bring greetings from the White Mountain Apache 
Tribe. I am Margaret Baha-Walker from the Eagle Clan and born 
to the Bear Clan. I serve the White Mountain Apache Tribe as 
its first chairwoman and I am here today to present testimony 
on their behalf.
    As always, I appreciate the support and leadership of 
Congresswoman Kirkpatrick and her willingness to work with our 
Tribe to address the important issues such as housing and 
veterans affairs.
    Currently, there are over 300 members of the White Mountain 
Apache Tribe who are veterans. Of those 300, it is estimated 
that 200 to 250 of them have a disability. The type of 
disabilities vary in degree. Recently, we have begun to see an 
increase in the health complications in our veterans that could 
result in disability. Those who served in Desert Storm, Iraq, 
and Afghanistan are developing new health problems. Some of 
them are slower to heal from illness because of a possible new 
blood disorder. It is believed that somehow their immune system 
has been weakened and they are not able to fight off diseases 
as easily.
    Disabled veterans living on the Fort Apache Indian 
Reservation have very few housing options. Because of our 
general housing shortages, many of these veterans live with 
their families or extended relatives in overcrowded or 
substandard housing. The older homes are in desperate need of 
rehabilitation. Many veterans do not have their own homes to 
fit their personal needs. Some of these veterans are homeless, 
a sad but true reality.
    While we are grateful for the funding received under 
NAHASDA, it has not even begun to make a dent in our housing 
and community development needs. The White Mountain Apache 
Tribe receives two major sources of funding authorized by 
NAHASDA: the Indian Housing Block Grant; and the Indian 
Community Development Block Grant.
    Currently, we have 1,000-plus housing stock, but also face 
a waiting list of over 1,000 families needing homes, including 
veterans. The average waiting period for a rental unit is 
approximately 2\1/2\ years.
    The current membership of the White Mountain Apache Tribe 
is 15,000 with a 3 percent annual growth rate. With many new 
and young families on the way, the number of them needing homes 
is sure to increase.
    The Indian Veterans Housing Opportunity Act of 2010 would 
ensure that our honored veterans receive much deserved housing 
assistance under NAHASDA. The disability and survivor benefits 
they receive should not be counted as income. I would like to 
emphasize how important the veterans are to, not only to my 
Tribe, but to the State of Arizona and to the United States.
    They served to protect our freedom and security, and the 
least we can do for them is make sure they have reasonable 
housing opportunities without penalizing them for receiving 
other benefits, survivors disability. We need to focus our 
efforts more on providing assistance to those in need, rather 
than weighing arbitrary income variables to deny people who 
need it the most.
    The White Mountain Apache Tribe, like the rest of the 
country, is enduring a severe economic recession. In the last 
decade, we have also had to deal with the Rodeo-Chediski Fire 
and its aftermath. More recently, we have experienced severe 
storms that have devastated our lands. We suffer from 
unemployment rates that would be unthinkable anywhere else in 
the United States. The people have suffered greatly and our 
veterans need fewer hurdles to recover, not more.
    I stand before you today filled with a genuine pride in our 
men and women in uniform who bravely defend our country today 
and also in those who proudly served in the past. We owe our 
veterans a debt of gratitude that can never be repaid. They 
sacrificed their lives and safety so that we may enjoy the 
freedoms that we do today.
    On our behalf, they faced bullets and looked into the face 
of death so that we may call this land ours, so that we may 
speak our native tongue, so that we may practice our 
traditions, and so that we may keep the promise of a brighter 
tomorrow for our children and theirs.
    On behalf of my people, the White Mountain Apache Tribe, 
Chairman Ronnie Lupe, and members of the Tribal Council, thank 
you for listening to the concerns of my Tribe.
    [The prepared statement of Ms. Baha-Walker can be found on 
page 32 of the appendix.]
    Chairwoman Waters. Our next witness will be Ms. Aneva 
Yazzie.

 STATEMENT OF ANEVA J. YAZZIE, CHIEF EXECUTIVE OFFICER, NAVAJO 
                       HOUSING AUTHORITY

    Ms. Yazzie. Good afternoon, Honorable Chairwoman Waters, 
and Honorable Representative Kirkpatrick. Thank you for this 
opportunity to address you on the pressing issues facing 
veterans in Indian Country. Your dedication to the cause of 
Indian sovereignty and your support for Native families across 
the country are an inspiration to me, and it is an honor to 
testify before you today.
    I also want to thank the veterans who are joining us today. 
For those who could not join us, I know that they're with us, 
as well. I also want to acknowledge my NHA Board of 
Commissioners that are here in full support of the bill and our 
testimony.
    I am Aneva Yazzie, Chief Executive Officer of the Navajo 
Housing Authority. I am of the Black Street Wood People Clan, 
born of the Bitter Water Clan. My paternal grandparents are 
near the Water Clan and my maternal grandparents are the Meadow 
People Clan.
    (Speaks in Navajo).
    I am in charge of operating the largest tribal housing 
organization in the country. The Navajo Housing Authority 
manages approximately 8,552 housing units. Approximately 3,800 
are rental units and 4,500 are homeownership units. We are the 
largest developer of housing in this vast area of our 
reservation.
    There are roughly a quarter million members of our Tribe 
who reside near or on the reservation. The Indian Veterans 
Housing Opportunity Act of 2010, the bill that we are here to 
discuss today, would provide very specific and very real help 
to veterans across Indian Country.
    The leadership you have shown, Congresswoman Kirkpatrick, 
along with the bill's co-sponsors, Representatives Lujan, 
Heinrich, Teague, Hare, and Richardson, gives comfort to the 
thousands of veterans who have served so honorably and suffered 
hardships in the line of duty.
    Native Americans respond to the call to serve their country 
at a higher rate than any other group in America. From the 
Revolutionary War to the Civil War to the Navajo Code Talkers 
in World War II, Native Americans have worked, defended, and 
championed the ideals of freedom, independence, self-
determination, and liberty, even when those very rights were 
denied to them at each and every turn. This bill would be a 
small step in repaying those veterans by removing one more 
barrier to their ability to gain housing.
    Under the Native American Housing Assistance and Self 
Determination Act, NAHASDA, Tribes were given greater leeway in 
designing and implementing programs to assist tribal members. 
One of the ways in which Tribes can exercise that authority is 
by setting rents, so long as they do not pass the maximum 
allowable amount of 3 percent of a tenant's adjusted income.
    This is different from other programs at HUD that typically 
set a hard percentage of 30 percent, what we have come to refer 
to as the Brooke Amendment for the author of the concept, the 
distinguished and I would say far-sighted Senator Edward Brooke 
of Massachusetts. Tribes can charge less and in many cases will 
make exceptions to rent payments for veterans who, like those 
identified in the bill, are receiving service-related 
disability payments.
    What we do not have the flexibility for, however, is in 
determining whether a disabled veteran is qualified for the 
housing program in the first place. Imagine, if you will, 
Congresswoman, that a veteran who has served his or country is 
returning from their overseas service, and during the course of 
that service, he or she has suffered a wound. That soldier, 
sailor, or airman receives payments from the VA, but while 
those payments are not counted for purposes of income tax, they 
do count for determining whether the individual can live in 
NAHASDA-assisted housing; the law that states that a tenant 
must be at or below 80 percent of area median income.
    As you will notice, there few housing options available in 
Indian Country in general, and here at Navajo in particular. 
Private housing stock for the most part simply does not exist 
for reasons that this subcommittee is quite familiar with and 
has likewise sought to alleviate.
    Many veterans return home to live with family, but in some 
instances, the combined income of the veteran from service-
related disability payments, because they are living in an 
overcrowded home, could put that family over 80 percent of area 
median income.
    Now, you have left this veteran with a choice: Try to find 
housing elsewhere in a scarce environment without the support 
of your family, or lie to the government so you can stay with 
your family and get the support you need to readjust to life 
back home. What a horrible choice. No veteran should ever have 
to make such a choice. They have served and suffered and they 
deserve our support.
    This is why I am such a strong supporter of this bill. Not 
only would it prevent veterans from having to make such 
difficult choices, it would provide the same benefit to those 
whose loved ones have given, as Lincoln said, the last full 
measure of their devotion.
    Reliable estimates place the number of homeless veterans in 
this country at 107,000 on any given night. As many as 67 
percent of these veterans, two-thirds, served 3 years or more, 
and a third of them served in war zones. While some detractors 
have opposed providing exceptions to income rules for any group 
and seek to soften the proposal from this bill, I must take 
strong exception to their arguments.
    This is a small change with limited impact on total rental 
income, and if we are not willing to make small changes to 
rules for those who have served our Nation for extended periods 
and in the line of fire, then for whom are we willing to adjust 
them?
    I realize that many of you may not have had the opportunity 
to visit our beautiful country, so let me take a moment to give 
you a perspective on Navajo and our challenges. The Navajo 
Nation spreads across three States: Arizona; New Mexico; and 
Utah. The Nation covers nearly 27,000 square miles or 17 
million acres, making it larger than the State of West 
Virginia.
    Working in concert with other agencies of the Navajo 
Nation, the Navajo Housing Authority has made great strides in 
improving the lives of tribal members. I am lucky to have the 
support of a tremendous staff, both in our headquarters in 
Window Rock, and throughout the Navajo Nation. I am also 
blessed by the support of our strong Board and Tribal 
Government, including President Shirley and his staff, and the 
Navajo Nation Council.
    The Navajo Nation is the largest reservation in the United 
States, both in terms of population and area coverage. As you 
can imagine, this creates tremendous challenges in creating 
housing communities and offices and staff that are accessible 
to all those we serve.
    We also face the issues of building housing that is 
temperate to the many environments across the reservation, from 
forests to plateaus to deserts and a range from 5,000 feet to 
over 10,500 feet.
    As we have grown in size and population, we have struggled 
to ensure adequate housing is available and accessible to all 
the people of the Navajo Nation. We have taken full advantage 
of NAHASDA funds and have seen a serious increase in the amount 
of homes that have gone up and the number of people who are 
housed in safe, secure, and affordable housing.
    As is all too often the case in Indian Country, we suffer 
from chronic unemployment, insufficient infrastructure, a lack 
of available housing, and the associated challenges, including 
poor health and substance abuse, particularly among our youth.
    This only exacerbates the need for affordable housing, as 
well as the need for technical jobs that the Navajo Housing 
Authority provides. Whether it is office jobs, construction or 
maintenance, we keep people employed across the reservation.
    In the last decade, the Native American Housing Assistance 
and Self Determination Act, NAHASDA, has been a useful tool in 
our Nation's work. The hallmarks of the law, self-determination 
and tribal decision-making, are what make it successful. Not 
only just for Navajo, but for Tribes across the Nation, it has 
provided a framework that allowed for successful advancement 
and pride of homeownership.
    The law is not without its challenges, and for the past 
decade, Tribes have worked with HUD to implement the law in the 
most effective and efficient manner possible. The Navajo 
Housing Authority enjoys a good working relationship both with 
our local HUD Office and with the National ONAP Office.
    We thank both Deputy Assistant Rodger Boyd and Assistant 
Secretary Sandra Henriquez for their support and guidance.
    I have stated in previous testimonies that the major 
failing of NAHASDA has not been caused by the law itself, but 
by the lack of sufficient funding. This affects our ability to 
serve all families and that certainly includes those who are 
targeted by H.R. 3553, as well.
    Unfortunately, the President's requested funding level for 
Fiscal Year 2011 is of serious concern. As costs increase 
without an increase in Federal funding, a higher share of 
NAHASDA funds go to support the existing housing stock.
    I would like to close my testimony by remembering President 
Lincoln's beautiful words with which he closed his second 
inaugural address: ``With malice toward none, with charity for 
all, with firmness in the right of God as God gives us to see 
the right, let us strive on to finish the work we are in, to 
bind up the nation's wounds, to care for him who shall have 
borne the battle and for his widow and his orphan, to do all 
which may achieve and cherish a just and lasting peace among 
ourselves and with all nations.''
    I thank you for the opportunity to discuss these vital 
needs and to share some of the work that Navajo is doing to put 
people into homes and back to work. I look forward to working 
with you as this important legislation moves forward, and I am 
happy to answer any questions that you and members of the 
committee may have.
    [The prepared statement of Ms. Yazzie can be found on page 
54 of the appendix.]
    Chairwoman Waters. Thank you very much. I will now 
recognize myself for a few minutes to raise a few questions 
before I turn over the questions to Representative Kirkpatrick.
    My first question would be to Senior Advisor to Secretary 
Donovan Fred Karnas. I would like to thank you for being here. 
I work very closely with Secretary Donovan, and we're very 
appreciative for his leadership with HUD. We are looking 
forward to advancing the cause of housing in this Nation, and 
certainly we are pleased about your interest in Indian housing.
    I would like to refer you to your comments about Indian 
Housing Block Grant funds where you mention that these funds 
could be used to make up for monies that are needed, 
particularly when the applicant does not qualify because of 
income that has been received from other sources.
    I'm sure that the leadership here at the Navajo Nation are 
aware of that, but you heard the housing needs that were 
documented here today. They are extensive. So if money is taken 
from the Block Grant funds, that only diminishes the 
opportunity to provide housing assistance where you have great 
need.
    So what we don't want to do is we don't want to rob Peter 
to pay Paul. We want to expand the amount of funds that are 
available to accommodate those that we believe by way of this 
legislation should not be discounted because of a certain kind 
of income.
    So while you have indicated that you are supportive, and we 
certainly need your support of this legislation, would you also 
conclude that perhaps it would not be the best way of dealing 
with this problem by taking money from the Block Grant funds?
    Mr. Karnas. I certainly understand, Madam Chairwoman, the 
comment. I think that all of my fellow panelists have made it 
very clear that there is a tremendous need, and my own 
experience in Arizona and elsewhere has shown that to be the 
case.
    I think Ms. Barney Nez mentioned that this may be a short-
term administrative effort while we're working on the bill to 
address this. I think at HUD we're trying to take a look at the 
best way to work with you all to find a solution that meets the 
needs that have been laid out here, and I think that we 
recognize that the dollars don't go as far as we need them to 
go in tribal lands, and we will work closely with you to see if 
we can solve that problem.
    Chairwoman Waters. Thank you, and, further, Mr. Karnas, let 
me just ask, if this hearing can be helpful in explaining to 
all of those who are concerned in HUD about the tremendous 
need, and while there are some opportunities to try and get 
some resources from other sources, that perhaps there is a need 
to expand the sources of revenue that could come for the 
housing needs here, perhaps, do you think this hearing could be 
helpful in helping to address that?
    Mr. Karnas. It has already been helpful with this panel, 
and I look forward to the second panel, certainly in terms of 
some of the questions that have been raised and some of the 
comments we have had. Secretary Donovan, as you know, has made 
it very clear he's not an individual who believes that 
individual programs should be in little boxes and serving only 
one population if you happen to be Native American, or you 
happen to be a person with disabilities, or you happen to be 
elderly, that you only get money from that program.
    He's working very hard within the Department to make all of 
our programs serve across the country the folks who need them, 
and he has--at this very hour, he has a senior person looking 
across our programs to serve special populations, which can be 
persons who have disabilities, to say, how can our mainstream 
programs better serve folks?
    So I think you're absolutely right. We have to find ways to 
expand the resources that we have beyond the small boxes that 
they sometimes tend to be in.
    Chairwoman Waters. Thank you very much. I will now yield to 
Congresswoman Kirkpatrick.
    Mrs. Kirkpatrick. Thank you. I want to thank all the panel. 
The first question is for Vice Chairwoman Baha-Walker and 
Angela Barney Nez.
    I share the pride that you both speak of regarding the 
honorable service of members of your Tribe, serving throughout 
history and serving today in Iraq, Afghanistan, and all over 
the world.
    Can you go into further detail about the homecoming they 
receive when they complete their service and return to tribal 
lands, and what more can we do to ensure that we keep our 
promises to these young heroes? And I'll start first with the 
Vice Chairman.
    Ms. Baha-Walker. Thank you. In the Apache way, we stand 
strong in our tradition and our culture, and when these 
veterans return home, they do not just become citizens, members 
of the White Mountain Apache Tribe, immediately. There are 
ceremonies that have to be done for them. You have to brush 
them off, spiritually, emotionally, and physically, because we 
do not know what they faced over there that might have affected 
them in these areas, and what they went through. Washington 
will never know the truth of what they experienced.
    Once that is done, the holy people of the spirits of the 
air, the mountain, the animals--these holy beings, they take 
them back into their lands, reintroduce them from Mother Earth 
to Father Sky, that this is the child who left this land.
    Not many of them do that. Not many of them believe in that 
way, and I see the suffering that is going on where they start 
dealing with alcohol and drugs, and what we need at White 
Mountain is a very strong support for our veterans, that one 
day we may able to see a veteran's office, and when they come 
home, they--the only housing opportunity that they have is with 
the housing authority, that the Tribal Council allowed and 
authorized our housing authority to be the entity for our 
programs. That is the only housing opportunity they have, and 
we have at Indian Health Service Hospital, which we have 
outgrown, and a little clinic in Cibecue, and with the diseases 
that keep coming to our lands, the increase for--to visit a 
doctor, has grown, and the veterans have to compete with that, 
also. It is a competition.
    And from your office--from the government, not just my 
Tribe, but every Native American, if we are the first to be so 
obedient to the government and defend our country, their 
fundings and their requests that we make for our veterans 
should be made a high priority.
    At White Mountain, we need any service that our veterans 
can benefit from, and I hope that answers your question, and if 
not, you can give me a more specific question.
    Ms. Barney Nez. Thank you for the question, Honorable 
Representative Kirkpatrick. Our homecoming for our Navajo 
veterans is very similar to that described by the Honorable 
Baha-Walker of White Mountain Apache. The Dine' way, the Dine' 
cultural ways have the holistic concept of wholeness quality, 
wholesomeness, and complete as a person in terms of health, 
wellness, emotions, all the different aspects of wellness in 
physical and mental health that pertains to the whole 
individual.
    So when they leave to go to--even just to boot camp or to 
their next level of service of assignments, deployments, there 
is a series of traditional cultural treatments that go with 
them regarding their family, their motherland, their home base, 
their fire base, their water base.
    There are many different kinds of holistic concepts in our 
traditional ways that go with our veterans, our warriors, 
because they're carrying a sacred name and they're carrying a 
sacred clan, and they're carrying the identity of the Dine' 
people.
    So in that concept, we raise our children with a lot of the 
traditional strengths, and this traditional mainstay of the 
culture as they grow. So when they reach that level, whether 
they're a man or a woman who goes into a uniform, then that 
becomes a two-tier layer of warrior role that they would have.
    They're already a warrior when they're young in our Navajo 
society. Most of the girls will have winter names. In fact, 
that's the tradition. And so will the men. So will the young 
boys.
    So when they go, they carry these identities with them, and 
when they experience the trauma of war, we have to do the 
cleansing ceremony, and we have to do all of those reinvention 
laboratory types of rehabilitation to restore this 
wholesomeness for our culture and for them to enter back into 
their homes and back to the arms of their mothers and their 
families, and into their hogans, and into their prayer circles.
    So thinking along that concept, we are grateful for some of 
the partnerships that we have with the health care aspect of 
treating the mental, and also the physical aspect of our 
veterans. In this sense we're--I'm talking about the agreement 
that the Navajo Nation has with the Carl Hayden VA Hospital, 
which serves as a supplement.
    Not the only one, but it supplements the service or the 
resource that is available to our veterans to get a wholesome 
treatment with the western health care system, as well as the 
traditional Navajo concept with the medicine people and our 
ways.
    In terms of looking at the whole person, I would introduce 
the idea here about having housing, having employment, having 
gainful employment, having training and education, and then 
having health care as a holistic readjustment program for our 
veterans.
    One of those ways that you can look at, and it is my great 
hope that in the recent President Obama's declaration of the 
Executive Order where all cabinet level of services, Federal 
agencies, entities that serve Native people, that at that 
cabinet level, that you look at housing, employment, and health 
care, to meet the goals of tribal governments in servicing 
veterans.
    Doing seamless transitions between the Department of 
Defense Services and to the VA, the U.S. VA Services, doing 
Helmets to Hard Hats, supporting education and employment and 
opportunities where veterans, while in service and uniform, 
they can be met dollar-for-dollar for education, and when they 
separate, they can use these monies to advance themselves in 
colleges and universities, and use that to build their career.
    The same thing could be introduced for housing. Housing 
could be a matter of dollar-for-dollar, if you can make that 
kind of an arrangement. I know it is nonexistent at this time.
    Mrs. Kirkpatrick. Thank you. I think I have used up my 
time, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. I would like to 
thank the witnesses who have come here today with valuable 
testimony. The Chair notes that we may have members with 
additional questions for you that they may wish to submit in 
writing. So without objection, the hearing record will remain 
open for 30 days for members to submit written questions to 
these witnesses and to place their responses in the record.
    This panel is now dismissed, and I would like to welcome 
our second panel. Thank you very much.
    Our first witness will be Mr. Jeff Begay, commander, Region 
9, National American Indian Veterans. Our second witness will 
be Mr. Mellor Willie, executive director, National American 
Indian Housing Council. Our third witness will be Mr. John 
Adkins, commander, Disabled American Veterans Department of 
Arizona. Our fourth witness will be Mr. Robert DiGiro--I think 
that name is pronounced a little bit differently--let me try it 
again.
    Mr. DiGirolamo. ``DiGirolamo,'' but that's close enough.
    Chairwoman Waters. --DiGirolamo, policy advisor, Disabled 
American Veterans. Our fifth witness will be Mr. David Nez, 
director, Navajo Nation Division of Veterans Affairs. Our sixth 
witness will be Mr. Wayne Saltwater, Navajo Nation Native 
American Veteran, and we have a seventh witness for this 
panel--I think this is a second Begay--Mr. Richard Begay, 
constituent and Navajo Native American veteran.
    Do we have seats for everyone? We're not going to hear from 
Mr. Adkins. Anyone else? Remove Mr. Adkins. Anyone else? We 
have five, and I have noted seven. Is there someone missing? 
Mr. Saltwater is not here. So we are going to take Mr. 
Saltwater off the list, and we will get started with our second 
panel.
    And the first person on our second panel, Mr. Begay, would 
you please start? Thank you. That is the first Mr. Begay.

STATEMENT OF JEFF BEGAY, COMMANDER, REGION 9, NATIONAL AMERICAN 
                        INDIAN VETERANS

    Mr. Jeff Begay. Thank you, Chairwoman Waters, and 
Representative Kirkpatrick. I appreciate the honor to be here 
today to speak on behalf of my comrades, and myself, as well, 
as a Vietnam veteran. I would like to introduce myself to my 
Native people by explaining my clan, which is customary.
    (Speaks in Navajo).
    I am a Vietnam veteran, as I said before. I am very proud 
to have served my country and my Navajo people, and I'm 
currently the Regional Commander for the National American 
Indian Veterans organization. Don Loudner is our Commander, and 
Coronal Joey Strickland is also our Chief of Staff, and I'm in 
charge of advocacy and also helping American Indians with their 
legislative issues in Arizona, Colorado, and Utah. I am also 
Vice Commander of American Legion Post 114, the Bushmasters out 
of Salt River Pima, Maricopa Indian community.
    And I'll make that introduction, and go on with a story 
about a typical--probably a typical native family, which is 
where I come from, and I'll begin with a story about my 
grandfather, my grandparents, my great grandfather.
    My grandfather's father and mother were in the mountains 
south of--west of here near--north of Steamboat around the 
Black Mesa area, and they were being chased by Kit Carsen and 
his calvary troops back in the mid 1800's, and they were 
running so they wouldn't be captured.
    And the story is told by my grandparents that they had a 
shelter made out of tree branches which was cedar branches and 
they were cooking cedar berries because they had no food to 
eat, and as that bowl of cedar berry was cooking, a U.S. Army 
soldier shot through the brush arbor and broke the pot, and 
steam and ash flew into the air, and my great grandfather 
reached for his bow and arrow, and was shot immediately by the 
U.S. soldier.
    And my grandfather ran and my great grandmother ran, and my 
grandmother was captured and taken down to the bottom of the 
mesa where many of our people were tied and were hostages and 
were being taken to Fort Sumner to be prisoners of war for a 4-
year period.
    My grandfather was left in the mountains. They weren't able 
to capture him, but he had a serious choice, a critical choice 
to make, and that was should he remain in the hills and be 
free, or should he join his mother, and being that family is 
very strong in any human family relationship, as well as the 
Navajo and Native people, he chose to be with his mother and 
spent 4 years in captivity in New Mexico at the age of 10 years 
old.
    He learned how to speak English, and he came back with a 
Navajo name of Ya'cri' yesser (phonetic), and something about 
his 4-year experience, although the U.S. Army shot and killed 
his father, he was fascinated with the military way of life.
    And when he returned after 4 years--during the time he was 
in captivity, he spent a lot of times watching the soldiers and 
was their runner and helper, and when he returned, he joined 
the U.S. Army as a U.S. Army scout, and was in the campaign 
against the Hopis in 1891 when they took up arms against the 
U.S. Government when they refused to send their children to 
school.
    So he became the very first U.S. military person in our 
family. My mother's uncles, two of them, were World War I 
veterans, and they suffered from chlorine gas inhalation, and 
one of them died in the Veterans Hospital in Denver, and this 
was probably 1920, or somewhere in that period of time.
    The second uncle lived for until he was about 90 years old 
with one lung. The one lung was damaged by chlorine gas. So 
from that point on, World War II occurred, and my namesake or 
the person I'm named for, Jeffrey Bahe, served in Italy as a 
U.S. Army veteran. His cousins--we have many, many uncles who 
served in World War II, and one of them, a clan uncle, is Joe 
Vandever who is a renowned Code Talker, and my uncle served in 
the Korean War and served twice in Vietnam.
    I am a Vietnam veteran. Afghanistan, we have relatives, 
cousins that serve there. Desert Storm, my sister retired from 
the U.S. Army in December of last year, and is a staff sergeant 
in the army and currently going to school.
    So you can see that we are a very proud warrior family, as 
many of my comrades here who are present also are about to say 
that they are, too. I am proud to have served, and we bring 
back a lot of pain. We bring back a lot of memories.
    And, fortunately, for some, we have taken on the healing 
processes early in life. When we returned, we were able to 
participate in Native healing ceremonies that our sister from 
the White Mountain Apache Nation described, and also my sister, 
Angela Barney Nez, described.
    Myself, I did not. I thought I was invincible. I thought I 
was a warrior, and I suffered consequences as a result of it 
with alcohol, which had me for many years until 15 years ago 
when I finally, through the grace of God, became a productive 
human being again.
    And to this day, I work for a construction company as a 
business development manager, and I would like to advocate for 
our veterans who are disabled, and I appreciate your compassion 
and effort to sponsor a bill that will help my comrades when 
they return and are denied these services.
    These are the veterans and soldiers that we shared foxholes 
with who were in the rain and the jungles of Vietnam and the 
hot deserts of Arabia and Iraq, and I hear stories from my 
uncle about how they suffered when they were in World War II, 
and shivering in a foxhole, shivering so hard that their teeth 
were clattering. Up against one another, and they were shaking 
so hard that they couldn't stop, and he said that the reason 
for that was because it was fear, it was not weather-related.
    So these kind of sufferings have been endured by our 
veterans and our family members, and when they come back and 
are denied services, it is very heartbreaking. I asked them 
what he thought about when he was there--
    Chairwoman Waters. Mr. Begay, I hate to stop you because 
your testimony is just absolutely so riveting and important, 
but we're going to have to hear from the other witnesses, and 
then have our question period so we can meet our airplane 
reservations for today.
    Mr. Jeff Begay. I apologize. Yes, ma'am. Thank you.
    Chairwoman Waters. Thank you. We're going to move to Mr. 
Mellor Willie. Thank you very much. Give him a big round of 
applause.

  STATEMENT OF MELLOR C. WILLIE, EXECUTIVE DIRECTOR, NATIONAL 
                AMERICAN INDIAN HOUSING COUNCIL

    Mr. Willie. Good afternoon, Chairwoman Waters, 
Representative Kirkpatrick, and distinguished members of the 
House Subcommittee on Housing and Community Opportunity. My 
name is Mellor Willie. I am the executive director of the 
National American Indian Housing Council, the premier national 
tribal nonprofit organization dedicated to advancing housing, 
physical infrastructure, and economic development in tribal 
communities in the United States.
    In addition to being the executive director of the NAIHC, I 
am an enrolled member of the Navajo Nation, born and raised 
here in Window Rock, Arizona, and appearing before you today is 
a special honor.
    And I would like to introduce myself appropriately.
    (Speaks in Navajo).
    First, I want to thank Representative Kirkpatrick, and 
Chairwoman Waters for holding this critical hearing on the 
Navajo Reservation in order to listen firsthand to the unique 
concerns that American Indian veterans face regarding housing 
in their homelands after being discharged by the United States 
Armed Forces. These men and women, some of whom have made the 
ultimate sacrifice to protect this country, deserve our support 
when they return home after active duty.
    Second, I would like to thank Representative Kirkpatrick 
for introducing the Indian Veterans Housing Opportunity Act of 
2009, in recognition of and to address such unique concerns. As 
members of the subcommittee know, Native Americans represent a 
small percentage of the United States population. Throughout 
history, however, a high percentage of tribal members have 
volunteered to serve in all branches of the United States 
military.
    Many Tribal members are traditional warrior societies, and 
this tradition has translated into an extraordinarily high 
level of patriotism in Native America, of dedication to and 
willingness to serve in the Armed Forces.
    In fact, some Native Americans were serving in the armed 
forces before they were even granted citizenship. In times of 
national need, Native Americans have been the first to answer 
the call to step up and protect this great country that we all 
call home. Yet, sadly, they all return to their homelands to 
face extraordinary challenges that other veterans do not face 
in obtaining safe, quality, and affordable housing.
    The Native American Housing Assistance and Self 
Determination Act, NAHASDA, is the cornerstone for providing 
housing assistance to low-income Native American families in 
Indian Country. NAHASDA, which is administered by the United 
States Department of Housing and Urban Development, specifies 
which activities are eligible for funding, including 
downpayment assistance, property acquisition, new construction, 
and housing rehabilitation.
    The provision of NAHASDA for the purpose of this hearing is 
that NAHASDA assistance is limited to low-income Native 
American families, defined as those with incomes of 80 percent 
or less of the median income for a given area.
    The NAHASDA statute does not contain an income exception 
for service-disabled veterans or families of soldiers killed in 
action. Tribes have no flexibility in determining economic 
eligibility. Due to this lack of flexibility, the issues that 
present a challenge for housing in tribal communities are 
compounded when it comes to Indian veterans.
    Under the current statutory language of NAHASDA, it is 
problematic that some veterans and their families face the 
possibility of being ineligible for housing assistance because 
of income earned as a result of service-related disabilities or 
death.
    The Internal Revenue Service already excludes such amounts 
from definition of income, but HUD does consider the payments 
as income, as they are bound under the statutory language in 
NAHASDA.
    The Indian Veterans Housing Opportunity Act of 2009 
proposed by Representative Kirkpatrick will remedy this 
situation and level the playing field for all Indian veterans 
by revising the definition of ``income'' for NAHASDA for 
purposes to exclude payments for service-related disability, 
dependence, and indemnity.
    I just want to be allowed to provide a real-life example. 
If a family of four living on the Indian reservation has an 
income of $50,000, this is less than the income limit and the 
family is eligible for NAHASDA services. However, if a brother, 
sister, son, daughter, father, or mother returns to the family 
from serving in the Armed Forces with a permanent disability 
and receives a monthly disability payment from the Department 
of Veterans Affairs of about a thousand dollars, that amount is 
added to the family income, and as a result, the family would 
be ineligible for NAHASDA assistance.
    There is already consensus among HUD, tribal leaders, and 
tribal organizations that there is a severe housing shortage in 
Indian communities, and that many homes are, as a result, 
overcrowded, and that many of the existing homes are in need of 
repairs, some of them substantial.
    I think you will see a lot of that today when you go 
through your tour of the houses that you will see across the 
Navajo Nation. We know that a lot of them are missing a full 
kitchen and plumbing, and that there are almost 200,000 new 
houses needed just to meet the needs in Indian Country.
    A survey conducted by HUD shows that of 11,500 households 
on the Navajo Reservation in Arizona, showed that those homes 
have 31,213 families. Of those, 2,726 households included at 
least one veteran. Of those, 86 received disability 
compensation. Severe overcrowding, coupled with veterans 
returning home to family caretakers, has resulted in the Indian 
families becoming ineligible for housing assistance.
    NAHASDA was enacted to provide Indian Tribes and Native 
American communities with new and creative tools necessary to 
develop culturally relevant, safe, decent, affordable housing.
    Native American soldiers who have put themselves in harms 
way protecting our Nation should not be penalized for their 
service to this great country. The amendment proposed by 
Representative Kirkpatrick's bill, H.R. 3553, will enable 
Tribes to more fully serve some of the neediest of families, 
those caring for disabled veterans returning from home or their 
survivors they have left behind.
    I want to thank Representative Kirkpatrick, Chairwoman 
Waters, and the subcommittee for your time and consideration 
regarding this issue of critical importance to Indian 
communities throughout the United States.
    I would be happy to answer any questions you might have, 
and I further would like to thank Chairwoman Waters. I know of 
your assistance on behalf of Indian housing and on behalf of 
the 360 members of the National American Indian Housing Council 
who provide housing services to 470 Tribes, approximately 90 
percent of the population, we thank you for your support on 
behalf of the Tribes.
    [The prepared statement of Mr. Willie can be found on page 
49 of the appendix.]
    Chairwoman Waters. You're certainly welcome. You're 
welcome. Thank you.
    Our next witness will be Mr. Robert DiGirolamo.

      STATEMENT OF ROBERT DiGIROLAMO, NATIONAL EXECUTIVE 
            COMMITTEEMAN, DISABLED AMERICAN VETERANS

    Mr. DiGirolamo. Since my written testimony has already been 
entered into the record, at this time, I will attempt to offer 
a brief summary.
    Madam Chairwoman, Mrs. Kirkpatrick, members of the 
subcommittee, members of the Navajo Nation, and fellow 
veterans, on behalf of the 1.2 million members of the Disabled 
American Veterans, I am honored to present testimony to the 
subcommittee today and to its guest members, Mrs. Kirkpatrick 
from the Committee on Veterans Affairs, and express our views 
on legislation before the subcommittee.
    DAV is dedicated to one single purpose, building better 
lives for all our Nation's disabled veterans in the 
communities. As national executive committeeman and a past 
Arizona State commander of DAV, I am proud to speak on behalf 
more than 24,000 State members, as well as our nationwide 
members. I am pleased to be here before this subcommittee, and 
grateful for the opportunity to do so.
    While the Native American Housing Assistance and Self 
Determination Act of 1996 did much to address the need of low-
income housing for Native Americans, I believe it is seriously 
devoid in that it often excludes a segment of the population 
that it is meant to serve: our Native American disabled 
veterans who so honorably served our country. Many of these 
veterans receiving compensation for injuries sustained during 
their services, are being denied low-income housing because 
their compensation puts them over the income criteria threshold 
of less than 80 percent of median income in their area.
    This often places them between the rock and the hard place 
of more household income than qualifies, but not enough to 
actually purchase a home in the marketplace. I believe the 
intent of the 1996 NAHASDA Act should have been to include, not 
exclude, as many low-income tribal members as possible in 
gaining access to housing in rural areas.
    The honorably deserved military injury compensation is 
quite difficult to acquire from the government and is intended 
to offset costs of the disabilities. Disability compensation 
should never be considered as normal household income criteria 
to create a barrier to affordable housing in a limited 
marketplace.
    Madam Chairwoman, in your invitation--we'll leave that one. 
As to your specific question, as you know, Congress enacted 
Public Law 109-233, the Veterans Housing Opportunity and 
Benefits Improvement Act of 2006, to improve the benefits 
available to veterans and service members by addressing the 
specialized housing needs of the thousands of service members 
and veterans wounded in OEF/OIF.
    The Act also provided a permanent authority in law for VA's 
direct home loan program to Native American Veterans. DAV 
supported these measures, but thus far they are aiding only a 
very small proportion of the disabled veteran population. 
Arranging appropriate housing from temporary transition to 
permanent for severely wounded OEF/OIF veterans remains a 
significant challenge.
    Mrs. Kirkpatrick's bill, H.R. 3553, is intended to exclude 
from consideration as income in the Native American Housing 
Assistance and Self Determination Act of 1996, amounts received 
by a family from the Department of Veterans Affairs for 
service-connected disabilities of a member of the family, 
including dependency and indemnity compensation. VA members 
approved a national resolution number 222, a resolution that 
calls for legislation to exclude VA disability compensation 
from income counted in means-tested benefit programs offered by 
other government agencies.
    This resolution is consistent with the purposes of Mrs. 
Kirkpatrick's legislation, a bill that would exempt Native 
American veterans in receipt of VA compensation from income 
limitations associated with the Native American Housing 
Assistance and Self Determination Act of 1996.
    Therefore, DAV strongly supports its enactment into law. To 
obtain affordable housing on Indian Trust Lands and for Native 
Americans, Alaska Natives, and Pacific Islander veterans in 
general, is highly problematic and challenging. Any measure 
that eases these requirements to promote permanent housing for 
Native American veterans, and in particular, service-disabled 
veterans, carries our strongest support.
    Finally, Madam Chairwoman, we do want to highlight that the 
purposes of this bill are limited to benefit only Native 
American disabled veterans and their survivors. Consistent with 
our adopted national resolution, we ask the subcommittee also 
to consider advancing new legislation that would apply the 
intentions of this bill to all Federal housing programs that 
provide subsidies, so that disabled veterans in need might be 
able to take advantage of them, rather than be disadvantaged by 
their receipt of service-connected disability compensation.
    [The prepared statement of Mr. DiGirolamo can be found on 
page 37 of the appendix.]
    Chairwoman Waters. Thank you very much, and we will 
consider that. Thank you.
    Mr. David Nez.

    STATEMENT OF DAVID P. NEZ, DEPARTMENT DIRECTOR, NAVAJO 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Nez. Good afternoon, Honorable Representative 
Kirkpatrick, and Chairwoman Waters, distinguished veterans, 
visitors, and relatives. I am born into the Coyote Pass Clan, 
born for Bitter Water. My paternal grandfathers are 
Kiyaa'aanii, and maternals are Tl'izi lani.
    I served for 22 years in the military, both active duty and 
reserve duty combined. During this period of service, I did a 
tour of duty during the Persian Gulf War. I am also a Vietnam 
Era Veteran. Fortunately or unfortunately, I was too young to 
have served in country back in 1974.
    Having served with a military occupational specialty of 11 
Bravo Infantry and 13 Bravo Artillery, it has been determined 
that I have lost at least 5 percent of my hearing upon 
separation from active duty.
    Therefore, I am 5 percent disabled. However, I am not 
receiving disability pension by personal choice. I am keenly 
aware of the problems my comrades, my fellow veterans, face in 
regards to housing.
    I have worked with the Navajo Housing Authority for 9-plus 
years as a housing management director after February 2010. I 
am currently employed by the Navajo Nation as a department 
manager for the Navajo Department of Veterans Affairs, a 
position that is counterpart to the State Directors of Veterans 
Affairs.
    My service and work experience has brought me into a unique 
position to advocate that, indeed, the Navajo veterans would 
greatly benefit from the exclusion of the disability pension in 
the NAHASDA regulations and the qualifying criteria for 
veterans housing on the Navajo Nation.
    Service-connected disability compensation should not be 
deemed as income earned. Your good work in the U.S. Congress to 
strike this requirement is notable and worthy. In collaboration 
with the Navajo Housing Authority, Navajo Veterans Affairs is 
in the initial phase of developing 11 housing units for 
veterans across the Navajo Nation.
    This is based on various applications that have been 
determined eligible under NAHASDA regulations. As least 2 of 
these applicants will be 100-percent disabled veterans with the 
possibility of another. This is a very conservative estimate.
    The Navajo Department of Veterans Affairs will be reviewing 
further into other avenues to increase the availability of 
affordable housing for veterans. The provisions under the VA 
Direct Home Loan Program is one stop-source that has limitation 
with regards to the Navajo lands being held in trust status.
    On behalf of all veterans, I thank you and appreciate the 
opportunity to have spoken with you on these issues. Thank you 
very much.
    [The prepared statement of Mr. Nez can be found on page 48 
of the appendix.]
    Chairwoman Waters. Thank you. Thank you.
    Next, we will hear from Mr. Richard Begay, constituent.

    STATEMENT OF RICHARD K. BEGAY, DISABLED AMERICAN VETERAN

    Mr. Richard Begay. Thank you. Good afternoon, and also 
welcome to the Navajo Nation. My name is Richard Begay. I am a 
disabled veteran from the Vietnam War where I served two tours 
of duty in Southeast Asia.
    The assignment--the mission that we were assigned gave us 
permanent physical and mental disabilities. To this day, we 
continue to live with the pains that we brought home, and some 
of us are fortunate to be receiving compensation.
    I wanted to bring up one other item. In 1970, when I was 
discharged from the military, I applied for the VA Home Loan 
Guarantee Program. When I submitted all my paperwork in the 
housing design, I was told that I was not qualified to get a 
home loan because the house that I was going to construct was 
going to be built on the reservation trust land, and the denial 
of that request was really a frustration after serving and 
coming home with a physical and mental disability.
    Then, finally, in 1992, with the help of so many other 
veterans organizations, Congress finally changed the law, the 
VA Home Loan Guarantee, by passing Public Law 102-547, the 
Native American Veteran Direct Home Loan Program, which 
authorized VA to made make direct home loans to Native American 
veterans living on trust land.
    And then the bill that we're discussing, H.R. 3553, in a 
way it is similar, because back in the 1970's, I was denied a 
home loan because I live on trust land, and with the NAHASDA 
rules and regulations that occur, disabled veterans are being 
penalized because they received compensation for their injuries 
or disability.
    On behalf of disabled Navajo veterans, I support 
wholeheartedly the legislation, H.R. 3553, and we urge full 
support and passage of this bill so more disabled Navajo 
veterans and surviving spouses can be eligible for this housing 
assistance. Thank you very much.
    [The prepared statement of Mr. Richard Begay can be found 
on page 35 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Without objection, we are adding to the panel Mr. Leonard 
Teller, chairman of the Navajo Housing Authority. Mr. Teller, 
thank you.

STATEMENT OF LEONARD TELLER, CHAIRMAN, NAVAJO HOUSING AUTHORITY

    Mr. Teller. Good afternoon, Congresswoman Waters, and Mrs. 
Kirkpatrick, as well. It is nice to see the two of you here 
again on Navajo land, Dine' land, and good afternoon, as well, 
to the previous panel, as well, distinguished individuals from 
HUD, White Mountain Apaches, and veterans office, as well, and 
the panel here. Good afternoon.
    My name is Leonard Teller. I'm the current chairperson of 
the Board of Commissioners of the Navajo Housing Authority, and 
also am a member of the Navajo Nation Council, as well. It is 
good to see this bill, which was the effort of the Navajo 
Housing Authority Board of Commissioners a few years back, 
coming to fruition for some fruitful discussion, and so forth, 
and we hope this does become law, as well.
    It makes all perfect sense to strike this language, because 
nowhere in any Federal regulation is there a recognition of 
income on any service-related disability payment. Only NAHASDA 
has that. The IRS doesn't even count this as income.
    So I think it makes perfect sense to strike--make this 
amendment that has been so far vastly needed on Native American 
land. Not just Navajo, but as you can see, across all America 
that is being served by NAHASDA, as well. So with that effort, 
I think it will eventually happen.
    As you have heard today, Congresswoman Waters and Mrs. 
Kirkpatrick, Native Americans hold their veterans in high 
esteem. They hold them in high esteem, and you heard them go 
through an elaborate process of re-indoctrinating them in 
society today.
    And these are areas that were not addressed by veterans. 
However, because of the value we place on veterans and the 
esteem that we hold them to, we honor them and cherish them, 
and go through the elaborate process of cleansing them, as 
well.
    So, to that end, the Veterans Affairs Administration, many 
of them benefits that they are being--that they are to be 
recipients of Veterans Affairs Programs, stop with the 
reservation lands. There is a whole host of effort that needs 
to be identified to move towards the area identifying 
additional barriers that are essential to loosening the 
restriction and amending the legislation to bring these 
benefits to Native American veterans.
    But a year or two ago, we also put forth an effort in 
bringing a model program for specifically a Native Veteran 
Housing Program. It almost gained traction in the halls of 
Congress, but we're going to try again.
    We believe this is vastly needed on under all Native 
American programs, on all Native lands. Many Native 
governments--or, I should say all Native governments is 
fulfilling the role that we believe Congress and Washington has 
enacted upon our veterans, and Native veterans.
    They have guaranteed various benefits to veterans and they 
stop at the reservation lines. Native governments today try 
their best with the resources they have to step in and try to 
fill those shoes, which are really the Federal Government 
shoes, towards bringing benefits to veterans on Indian Country. 
So that has to be addressed.
    NAHASDA has only a small fraction, a fraction of what could 
be possible to Native veterans, and this effort we speak to 
today brings that to bear. But there is also another issue we 
have been working on, which is the matter of prohibition of 
collaboration between Federal agencies, and what I speak to the 
prohibition of collaboration between the Indian Health Service 
and NAHASDA.
    Today, within the annual appropriations budget process, 
there is language that specifically prohibits collaboration 
between IHS money and NAHASDA monies. That shouldn't be so. 
That does not make sense at all.
    We serve the same clientele, the clientele being those at 
risk, those most underserved or not served, very low, low-
income. We have the same agenda. Yet, we are prohibited from 
collaborating. This is another area that we will be bringing 
forth, as well.
    That undermet area of NAHASDA, the new amendments, allow us 
to bring forth innovative programs, and I believe, as I agree 
with the previous panel, that there is an opportunity to 
instill some model Native veterans programs--housing programs 
within that realm, as well, but still subject to lot of 
interpretation under NAHASDA.
    Today, we have an issue, the Navajo Housing Authority has 
an issue with the regional office and may be coming to 
Washington for some mediations or interpretation. If we have to 
go that far, we'll come to ask for your assistance, Ms. Waters 
and Mrs. Kirkpatrick.
    I believe that we are all on the same song sheet here, and 
that an amendment is necessary. Thank you.
    Chairwoman Waters. Thank you very much. Thank you.
    I will now go to Representative Kirkpatrick for questions.
    Mrs. Kirkpatrick. Thank you, Madam Chairwoman, and thank 
you to all of our panels for that excellent testimony. My 
question is for Mr. Nez, David Nez. The disability compensation 
that some veterans receive is used to treat and live with the 
service-connected injuries. However, I know that certain 
services of living on tribal lands, make caring for these 
veterans even more expensive than those living in less rural 
areas.
    For example, veterans in Indian Country must often, at 
their own expense, travel great distances to receive care from 
the VA. Disabled veterans who use prosthetics and wheelchairs 
find that these tools don't last nearly as long when used in 
the often unimproved terrain of Indian Country.
    In your experience working with veterans on tribal lands, 
what are some of the other unique factors that make this 
disability compensation disappear even quicker than it would in 
less rural areas?
    Mr. Nez. I see that in this Navajo Nation, on this Navajo 
Nation, that on the geographic--geographic area, it is--it is a 
barrier in itself. The economic conditions on the Nation are a 
barrier in itself, and that services that are available here on 
the Navajo--for instance, the Indian Health Service which 
serves the population at large, and versus the tenants and 
hostels for veterans in outpatient situations, these are very 
removed from where we are, and--and these are barriers that I 
see, that the veterans are continuing to struggle with.
    And some of the service that--some of the tools or the 
services that we can bring forth to try to have them access 
these services, is sometimes very, very hard to realize, and it 
takes--it takes funding and it takes feasibility. 
Infrastructure, it is sometimes not there, and that--and as 
best as we could, we are looking at--looking at homeless 
shelters. We are looking at employment and training programs. 
We are looking at housing for indigent veterans and veterans 
who cannot afford to buy a home under the NAHASDA program, or 
those who can't qualify for Direct Home Loan Programs.
    So there is a group there who are underserved, and these 
are--these are where grant money is needed, and I would like to 
see that. I'm looking at housing as a priority for veterans, 
and I want to do a low-income to moderate-income to high-
income.
    The high-income is also a problem area where a veteran is 
very--they have high-paying jobs, but they cannot be served 
under NAHASDA. Therefore, they have to fend on their own, and 
in this case we would like to invite a loan program that would 
be beneficial to them, as best as I could in a nutshell. Thank 
you.
    Mrs. Kirkpatrick. Thank you again, to all of our panelists 
and all of the people in the audience for being here today, and 
I especially thank Chairwoman Waters for conducting this 
hearing. I know she has to go to Albuquerque to catch a plane, 
but before she does that, we would like to have all the 
veterans come up on the stage for a picture--and police 
officers. So all veterans and all police officers come up on 
the stage. We would like to get a picture of you with 
Chairwoman Waters before she leaves.
    Chairwoman Waters. Okay. Thank you very much. The Chair 
notes that some members may have additional questions for this 
panel which they may wish to submit in writing. Without 
objection, the hearing record will remain open for 30 days for 
members to submit written questions to these witnesses and to 
place their responses in the record.
    This panel is now dismissed, and before we adjourn, the 
written statements of the following organizations and 
individuals will be made part of the record of this hearing: a 
statement from Mr. Raymond P. Bell, Jr.
    [Whereupon, the hearing was adjourned.]


















                            A P P E N D I X



                             April 10, 2010

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
